CERTIFICATE OF SERVICE
NO. 19-1134
Lonny E. Baley, et al.
Petitioner(s)
v.
United States, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PACIFIC
COAST FEDERATION OF FISHERMEN’S ASSOCIATIONS BRIEF IN OPPOSITION, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Paul Scott Simmons
Somach Simmons and Dunn
500 Capital Mall
Suite 1000
Sacramento, CA 95814
(916) 446-7979
psimmons@somachlaw.com
Counsel for Lonny Baley, et al.

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

Lucas DeDeus

May 14, 2020
SCP Tracking: True-810 Third Ave., Suite 610-Cover Orange

